No. __A__________

In the Supreme Court of the United States
LOUIE GOHMERT, TYLER BOWYER, NANCY COTTLE, JAKE HOFFMAN,
ANTHONY KERN, JAMES R. LAMON, SAM MOORHEAD, ROBERT
MONTGOMERY, LORAINE PELLEGRINO, GREG SAFSTEN, KELLI WARD
AND MICHAEL WARD,
Applicants,
v.
THE HONORABLE MICHAEL R. PENCE, VICE PRESIDENT OF THE UNITED
STATES, IN HIS OFFICIAL CAPACITY.
Respondent.

APPENDIX TO EMERGENCY APPLICATION TO THE HONORABLE
SAMUEL A. ALITO AS CIRCUIT JUSTICE FOR THE FIFTH CIRCUIT FOR
ADMINISTRATIVE STAY AND INTERIM RELIEF PENDING RESOLUTION
OF A TIMELY FILED PETITION FOR A WRIT OF CERTIORARI

Sidney Powell
Texas Bar No. 16209700
SIDNEY POWELL, P.C.
2911 Turtle Creek Blvd., Suite 1100
Dallas, TX 72519
Tel: (214) 628-9514
Fax: (214) 628-9505
Email: sidney@federalappeals.com

William Lewis Sessions*
Texas Bar No. 18041500
SESSIONS & ASSOCIATES, PLLC
14591 North Dallas Parkway, Suite 400
Dallas, TX 75254
Tel: (214) 217-8855
Fax: (214) 723-5346
Email: lsessions@sessionslaw.net

Lawrence J. Joseph
DC Bar #464777
LAW OFFICE OF LAWRENCE J. JOSEPH
1250 Connecticut Av NW, Ste 700
Washington, DC 20036
Tel: (202) 355-9452
Fax: (202) 318-2254
Email: ljoseph@larryjoseph.com

Howard Kleinhendler
NY Bar No. 2657120
HOWARD KLEINHENDLER ESQUIRE
369 Lexington Ave., 12th Floor
New York, New York 10017
Tel: (917) 793-1188
Fax: (732) 901-0832
Email: howard@kleinhendler.com

Counsel for Applicants

* Counsel of Record

APPENDIX
Gohmert v. Pence,
No. 6:20-CV-00660-JDK (E.D. Tex. Jan. 1, 2021) (order).............................. 1a
Gohmert v. Pence,
No. 6:20-CV-00660-JDK (E.D. Tex. Jan. 1, 2021) (judgment)..................... 14a
Gohmert v. Pence,
No. 21-40001 (5th Cir. Jan. 2, 2021) ............................................................ 15a
3 U.S.C. § 5 .............................................................................................................. 17a
3 U.S.C. § 6 ............................................................................................................... 17a
3 U.S.C. § 15 ............................................................................................................. 18a
U.S. CONST. art. I, § 7, cl. 3...................................................................................... 20a
U.S. CONST. art. II, § 1, cl. 2 ................................................................................... 20a
U.S. CONST. amend. XII ........................................................................................... 20a
Complaint (EFC #1) ................................................................................................. 22a
Complaint Exhibit A (EFC #1-1) ............................................................................. 50a
Reply in Support Ex. A (ECF #30-1) ....................................................................... 54a
Reply in Support Ex. B (ECF #30-2) ....................................................................... 56a
Reply in Support Ex. C (ECF #30-3) ....................................................................... 57a
Reply in Support Ex. D (ECF #30-4) ....................................................................... 59a
Reply in Support Ex. E (ECF #30-5) ....................................................................... 62a

ia

Case 6:20-cv-00660-JDK Document 37 Filed 01/01/21 Page 1 of 13 PageID #: 979

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
TYLER DIVISION
THE HONORABLE LOUIE
GOHMERT, et al.,
Plaintiffs,
v.
THE HONORABLE MICHAEL R.
PENCE, in his official capacity as Vice
President of the United States,
Defendant.

§
§
§
§
§
§
§
§
§
§
§
§

Case No. 6:20-cv-660-JDK

ORDER OF DISMISSAL
This case challenges the constitutionality of the Electoral Count Act of 1887,
as codified at 3 U.S.C. §§ 5, 15. The Court cannot address that question, however,
without ensuring that it has jurisdiction. See, e.g., U.S. CONST. art. III, § 2; Cary v.
Curtis, 44 U.S. 236, 245 (1845). One crucial component of jurisdiction is that the
plaintiffs have standing. This requires the plaintiffs to show a personal injury that
is fairly traceable to the defendant’s allegedly unlawful conduct and is likely to be
redressed by the requested relief.

See, e.g., U.S. CONST. art. III, § 2; Lujan v.

Defenders of Wildlife, 504 U.S. 555, 560–61 (1992). Requiring plaintiffs to make this
showing helps enforce the limited role of federal courts in our constitutional system.
The problem for Plaintiffs here is that they lack standing. Plaintiff Louie
Gohmert, the United States Representative for Texas’s First Congressional District,
alleges at most an institutional injury to the House of Representatives. Under wellsettled Supreme Court authority, that is insufficient to support standing. Raines v.

1
1a

Case 6:20-cv-00660-JDK Document 37 Filed 01/01/21 Page 2 of 13 PageID #: 980

Byrd, 521 U.S. 811, 829 (1997).
The other Plaintiffs, the slate of Republican Presidential Electors for the State
of Arizona (the “Nominee-Electors”), allege an injury that is not fairly traceable to the
Defendant, the Vice President of the United States, and is unlikely to be redressed
by the requested relief.
Accordingly, as explained below, the Court lacks subject matter jurisdiction
over this case and must dismiss the action.
I.
A.
The Electors Clause of the U.S. Constitution requires that each state appoint,
in the manner directed by the state’s legislature, the number of presidential electors
to which it is constitutionally entitled. U.S. CONST. art. II, § 1, cl. 2. Under the
Twelfth Amendment, each state’s electors meet in their respective states and vote for
the President and Vice President. U.S. CONST. amend XII. The electors then certify
the list of their votes and transmit the sealed lists to the President of the United
States Senate—that is, the Vice President of the United States.

The Twelfth

Amendment then provides that, “[t]he President of the Senate shall, in the presence
of the Senate and House of Representatives, open all the certificates and the votes
shall then be counted.” Id. A candidate winning a majority of the electoral votes wins
the Presidency. However, if no candidate obtains a majority of the electoral votes,
the House of Representatives is to choose the President—with each state delegation
having one vote. Id.

2
2a

Case 6:20-cv-00660-JDK Document 37 Filed 01/01/21 Page 3 of 13 PageID #: 981

The Electoral Count Act, informed by the Hayes-Tilden dispute of 1876,
sought to standardize the counting of electoral votes in Congress. Stephen A. Siegel,
The Conscientious Congressman’s Guide to the Electoral Count Act of 1887, 56 FLA. L.
REV. 541, 547–50 (2004). Section 5 makes states’ determinations as to their electors,
under certain circumstances, “conclusive” and provides that these determinations
govern the counting of electoral votes. 3 U.S.C. § 5. Section 15 requires a joint session
of Congress to count the electoral votes on January 6, with the President of the Senate
presiding. Id. § 15.
During that session, the President of the Senate calls for objections on the
electoral votes. Written objections submitted by at least one Senator and at least one
Member of the House of Representatives trigger a detailed dispute-resolution
procedure.

Id.

Most relevant here, Section 15 requires both the House of

Representatives and the Senate—by votes of their full membership rather than by
state delegations—to decide any objection. The Electoral Count Act also gives the
state governor a role in certifying the state’s electors, which Section 15 considers in
resolving objections. Id. § 6.
It is these dispute-resolution procedures that Plaintiffs challenge in this case.
B.
On December 14, 2020, electors convened in each state to cast their electoral
votes. Id. § 7; Docket No. 1 ¶ 5. In Arizona, the Democratic Party’s slate of eleven
electors voted for Joseph R. Biden and Kamala D. Harris. These votes were certified
by Arizona Governor Doug Ducey and Arizona Secretary of State Katie Hobbs and
submitted as required under the Electoral Count Act. Docket No. 1 ¶ 22. That same
3
3a

Case 6:20-cv-00660-JDK Document 37 Filed 01/01/21 Page 4 of 13 PageID #: 982

day, the Nominee-Electors state that they also convened in Arizona and voted for
Donald J. Trump and Michael R. Pence. Id. ¶ 20. Similar actions took place in
Georgia, Pennsylvania, Wisconsin, and Michigan (with Arizona, the “Contested
States”).

Id. ¶ 20–21.

Combined, the Contested States represent seventy-three

electoral votes. See id. ¶ 23.
On December 27, Plaintiffs filed this lawsuit, alleging that there are now
“competing slates” of electors from the Contested States and asking the Court to
declare that the Electoral Count Act is unconstitutional and that the Vice President
has the “exclusive authority and sole discretion” to determine which electoral votes
should count. Id. ¶ 73. They also ask for a declaration that “the Twelfth Amendment
contains the exclusive dispute resolution mechanisms” for determining an objection
raised by a Member of Congress to any slate of electors and an injunction barring the
Vice President from following the Electoral Count Act.

Id.

On December 28,

Plaintiffs filed an Emergency Motion for Expedited Declaratory Judgment and
Emergency Injunctive Relief (“Emergency Motion”). Docket No. 2. Plaintiffs request
“an expedited summary proceeding” under Federal Rule of Civil Procedure 57. Id.
On December 31, the Vice President opposed Plaintiffs’ motion. Docket No. 18.
II.
As mentioned above, before the Court can address the merits of Plaintiff’s
Emergency Motion, it must ensure that it has subject matter jurisdiction. See, e.g.,
Cary, 44 U.S. at 245 (“The courts of the United States are all limited in their nature
and constitution, and have not the powers inherent in courts existing by prescription
or by the common law.”); DaimlerChrysler Corp. v. Cuno, 547 U.S. 332, 340–41 (2006)
4
4a

Case 6:20-cv-00660-JDK Document 37 Filed 01/01/21 Page 5 of 13 PageID #: 983

(“If a dispute is not a proper case or controversy, the courts have no business deciding
it, or expounding the law in the course of doing so.”).

Article III of the U.S.

Constitution limits federal courts to deciding only “cases” or “controversies,” which
ensures that the judiciary “respects ‘the proper—and properly limited—role of the
courts in a democratic society.’” DaimlerChrysler, 547 U.S. at 341 (quoting Allen v.
Wright, 468 U.S. 737, 750 (1984)); see also Raines, 521 U.S. at 828 (quoting United
States v. Richardson, 418 U.S. 166, 192 (1974)) (“Our regime contemplates a more
restricted role for Article III courts . . . ‘not some amorphous general supervision of
the operations of government.’”).
“[A]n essential and unchanging part of the case-or-controversy requirement of
Article III” is that the plaintiff has standing. Lujan, 504 U.S. at 560. The standing
requirement is not subject to waiver and requires strict compliance. E.g., Lewis v.
Casey, 518 U.S. 343, 349 n.1 (1996); Raines, 521 U.S. at 819. A standing inquiry is
“especially rigorous” where the merits of the dispute would require the Court to
determine whether an action taken by one of the other two branches of the Federal
Government is unconstitutional.

Raines, 521 U.S. at 819–20 (citing Bender v.

Williamsport Area Sch. Dist., 475 U.S. 534, 542 (1986), and Valley Forge Christian
Coll. v. Ams. United for Separation of Church & St., Inc., 454 U.S. 464, 473–74
(1982)). This is because “the law of Art. III standing is built on a single basic idea—
the idea of separation of powers.” Allen, 468 U.S. at 752, abrogated on other grounds
by Lexmark Int’l, Inc. v. Static Control Components, Inc., 572 U.S. 118, 128 (2014).
Article III standing “enforces the Constitution’s case-or-controversy requirement.”

5
5a

Case 6:20-cv-00660-JDK Document 37 Filed 01/01/21 Page 6 of 13 PageID #: 984

DaimlerChrysler Corp., 547 U.S. at 342 (quoting Elk Grove Unified Sch. Dist. v.
Newdow, 542 U.S. 1, 11 (2004)). And “[n]o principle is more fundamental to the
judiciary’s proper role in our system of government than the constitutional limitation
of federal-court jurisdiction to actual cases or controversies.” Raines, 521 U.S. at 818.
Article III standing requires a plaintiff to show: (1) that he “has suffered an
‘injury in fact’ that is (a) concrete and particularized and (b) actual or imminent, not
conjectural or hypothetical”; (2) that “the injury is fairly traceable to the challenged
action of the defendant”; and (3) that “it is likely, as opposed to merely speculative,
that the injury will be redressed by a favorable decision.” El Paso Cnty. v. Trump,
982 F.3d 332, 336 (5th Cir. 2020) (quoting Friends of the Earth, Inc. v. Laidlaw Env’t.
Servs. (TOC), Inc., 528 U.S. 167, 180–81 (2000)).

“The party invoking federal

jurisdiction bears the burden of establishing these elements,” and “each element must
be supported in the same way as any other matter on which the plaintiff bears the
burden of proof, i.e., with the manner and degree of evidence required at the
successive stages of the litigation.” Lujan, 504 U.S. at 561. “At the pleading stage,
general factual allegations of injury resulting from the defendant’s conduct may
suffice.” Id.
III.
Here, Plaintiffs have failed to demonstrate that they have standing to bring
the claim alleged in Count I of their complaint.
A.
The first Plaintiff is the Representative for Texas’s First Congressional
District, the Honorable Louie Gohmert. Congressman Gohmert argues that he will
6
6a

Case 6:20-cv-00660-JDK Document 37 Filed 01/01/21 Page 7 of 13 PageID #: 985

be injured because “he will not be able to vote as a Congressional Representative in
accordance with the Twelfth Amendment.’’

Docket No. 2 at 4.

Specifically,

Congressman Gohmert argues that on January 6, 2021, when Congress convenes to
count the electoral votes for President and Vice President, he “will object to the
counting of the Arizona slate of electors voting for Biden and to the Biden slates from
the remaining Contested States.” Docket No. 1 ¶ 6. If a member of the Senate
likewise objects, then under Section 15 of the Electoral Count Act, each member of
the House and Senate is entitled to vote to resolve the objections, which Congressman
Gohmert argues is inconsistent with the state-by-state voting required under the
Twelfth Amendment. Docket No. 2 at 5. Congressmen Gohmert argues that the Vice
President’s compliance with the procedures of the Electoral Count Act will directly
cause his alleged injury. Id. at 7. And he argues that a declaration that Sections 5
and 15 of the Electoral Count Act are unconstitutional would redress his alleged
injury. Id. at 9–10.
Congressman Gohmert’s argument is foreclosed by Raines v. Byrd, which
squarely held that Members of Congress lack standing to bring a claim for an injury
suffered “solely because they are Members of Congress.” 521 U.S. at 821. And that
is all Congressman Gohmert is alleging here. He does not identify any injury to
himself as an individual, but rather a “wholly abstract and widely dispersed”
institutional injury to the House of Representatives.

Id. at 829.

Congressman

Gohmert does not allege that he was “singled out for specially unfavorable treatment
as opposed to other Members of their respective bodies,” does not claim that he has

7
7a

Case 6:20-cv-00660-JDK Document 37 Filed 01/01/21 Page 8 of 13 PageID #: 986

“been deprived of something to which [he] personally [is] entitled,” and does not allege
a “loss of any private right, which would make the injury more concrete.” Id. at 821
(emphasis in original).

Congressman Gohmert’s alleged injury is “a type of

institutional injury (the diminution of legislative power), which necessarily damages
all Members of Congress.” Id. Under these circumstances, the Supreme Court held
in Raines, a Member of Congress does not have “a sufficient ‘personal stake’” in the
dispute and lacks “a sufficiently concrete injury to have established Article III
standing.” Id. at 830.
For the first time in their reply brief, Plaintiffs assert that Congressman
Gohmert has standing as a Texas voter, relying on League of United Latin Am.
Citizens, Dist. 19 v. City of Boerne, 659 F.3d 421, 430 (5th Cir. 2011). Docket No. 30
at 30, 33–34. The Court disagrees. In LULAC, the Fifth Circuit held that an
individual voter had standing to challenge amendments to the City of Boerne’s city
council election scheme that would allegedly deprive him of a “pre-existing right to
vote for certain offices.” 659 F.3d at 430. That is not the case here. Congressman
Gohmert does not allege that he was denied the right to vote in the 2020 presidential
election. Rather, he asserts that under the Electoral Count Act, “he will not be able
to vote as a Congressional Representative in accordance with the Twelfth
Amendment.” Docket No. 2 at 4 (emphasis added). Because Congressman Gohmert
is asserting an injury in his role as a Member of Congress rather than as an individual
voter, Raines controls.

8
8a

Case 6:20-cv-00660-JDK Document 37 Filed 01/01/21 Page 9 of 13 PageID #: 987

Further weighing against Congressman Gohmert’s standing here is the
speculative nature of the alleged injury. “To establish Article III standing, an injury
must be ‘concrete, particularized, and actual or imminent.’” Clapper v. Amnesty Int’l
USA, 568 U.S. 398, 409 (2013) (quoting Monsanto Co. v. Geertson Seed Farms, 561
U.S. 139, 149 (2010)); see also Lujan, 504 U.S. at 560 (quoting Whitmore v. Arkansas,
495 U.S. 149, 155 (1990)) (alleged injury cannot be “conjectural” or “hypothetical”).
“Although imminence is concededly a somewhat elastic concept, it cannot be stretched
beyond its purpose, which is to ensure that the alleged injury is not too speculative
for Article III purposes—that the injury is certainly impending.” Clapper, 568 U.S.
at 409 (quoting Lujan, 504 U.S. at 565 n.2).
Here,

Congressman

Gohmert’s

alleged

injury

requires

a

series

of

hypothetical—but by no means certain—events. Plaintiffs presuppose what the Vice
President will do on January 6, which electoral votes the Vice President will count or
reject from contested states, whether a Representative and a Senator will object
under Section 15 of the Electoral Count Act, how each member of the House and
Senate will vote on any such objections, and how each state delegation in the House
would potentially vote under the Twelfth Amendment absent a majority electoral
vote. All that makes Congressman Gohmert’s alleged injury far too uncertain to
support standing under Article III. Id. at 414 (“We decline to abandon our usual
reluctance to endorse standing theories that rest on speculation about the decisions
of independent actors.”).

9
9a

Case 6:20-cv-00660-JDK Document 37 Filed 01/01/21 Page 10 of 13 PageID #: 988

Accordingly, the Court finds that Congressman Gohmert lacks standing to
bring the claim alleged here.
B.
The Nominee-Electors argue that they have standing under the Electors
Clause “as candidates for the office of Presidential Elector because, under Arizona
law, a vote cast for the Republican Party’s President and Vice President is cast for
the Republican Presidential Electors.” Docket No. 2 at 6 (citing ARIZ. REV. STAT. § 16212). The Nominee-Electors were injured, Plaintiffs contend, when Governor Ducey
unlawfully certified and transmitted the “competing slate of Biden electors” to be
counted in the Electoral College. Id. at 7.
This alleged injury, however, is not fairly traceable to any act of the Vice
President. Nor is it an injury likely to be redressed by a favorable decision here. See
Friends of the Earth, 528 U.S. at 180–81.1 Plaintiffs do not allege that the Vice
President had any involvement in the “certification and transmission of a competing

1

The Court need not decide whether the Nominee-Electors were “candidates” under Arizona law.
Plaintiffs cite Carson v. Simon, in which the Eighth Circuit held that prospective presidential
electors are “candidates” under Minnesota law and have standing to challenge how votes are tallied
in Minnesota. 978 F.3d 1051, 1057 (8th Cir. 2020). But the U.S. District Court for the District of
Arizona has distinguished Carson, holding that presidential electors in Arizona are ministerial and
are “not candidates for office as the term is generally understood” under Arizona law. Bowyer v.
Ducey, — F. Supp. 3d —, 2020 WL 7238261, at *4 (D. Ariz. Dec. 9, 2020); see also Feehan v. Wis.
Elections Comm’n, No. 20-CV-1771-PP, 2020 WL 7250219, at *12 (E.D. Wis. Dec. 9, 2020) (nomineeelector is not a candidate under Wisconsin law). “Arizona law makes clear that the duty of an Elector
is to fulfill a ministerial function, which is extremely limited in scope and duration, and that they
have no discretion to deviate at all from the duties imposed by the statute.” Bowyer, 2020 WL
7238261, at *4 (citing ARIZ. REV. STAT. § 16-212(c)). Arizona voters, moreover, vote “for their
preferred presidential candidate,” not any single elector listed next to the presidential candidates’
names. Id. (citing ARIZ. REV. STAT. § 16-507(b)). The court in Bowyer therefore held that nomineeelectors in Arizona lacked standing to sue state officials for alleged voting irregularities. See id. In
any event, even if the Nominee-Electors had standing to sue state officials to redress the injury
alleged here, they have not done so. Plaintiffs have named only the Vice President, and they have
not shown “a fairly traceable connection between [their] injury and the complained-of conduct of
defendant.” E.g., Steel Co. v. Citizens for a Better Env’t, 523 U.S. 83, 103 (1998).

10
10a

Case 6:20-cv-00660-JDK Document 37 Filed 01/01/21 Page 11 of 13 PageID #: 989

slate of Biden electors.” Docket No. 2 at 7. Nor could they. See 3 U.S.C. § 6. That
act is performed solely by the Arizona Governor, who is a “third party not before the
court.” Lujan, 504 U.S. at 560–61 (quoting Simon v. Eastern Ky. Welfare Rts. Org.,
426 U.S. 26, 41–42 (1976)). Indeed, Plaintiffs acknowledge that their injury was
caused by Arizona officials in Arizona, the “Vice President did not cause [their]
injury,” and their “unlawful injuries [were] suffered in Arizona.” Docket No. 2 at 7.
The Nominee-Electors argue that their injury is nevertheless fairly traceable
to the Vice President because he will “ratify and purport to make lawful the unlawful
injuries that Plaintiffs suffered in Arizona.” Id. For support, Plaintiffs cite Sierra
Club v. Glickman, in which the Fifth Circuit held that an environmental injury was
fairly traceable to the Department of Agriculture, even though the injury was directly
caused by third-party farmers, because the Department had “the ability through
various programs to affect the pumping decisions of those third party farmers to such
an extent that the plaintiff’s injury could be relieved.”

156 F.3d 606, 614 (5th

Cir. 1998). Nothing like that is alleged here. The Vice President’s anticipated actions
on January 6 will not affect the decision of Governor Ducey regarding the certification
of presidential electors—which occurred more than two weeks ago on December 14.
Even “ratifying” or “making lawful” the Governor’s decision, as Plaintiffs argue will
occur here, will not have any “coercive effect” on Arizona’s certification of electoral
votes. See Bennett v. Spear, 520 U.S. 154, 168–69 (1997).
For similar reasons, the Nominee-Electors’ claimed injury is not likely to be
redressed here. To satisfy redressability, Plaintiffs must show that it is “likely” their

11
11a

Case 6:20-cv-00660-JDK Document 37 Filed 01/01/21 Page 12 of 13 PageID #: 990

alleged injury will be “redressed by a favorable decision.” Lujan, 504 U.S. at 561.
But here, Plaintiffs seek declaratory and injunctive relief as to the manner of the Vice
President’s electoral vote count. See Docket No. 1 ¶ 73. Such relief will not resolve
their alleged harm with respect to Governor Ducey’s electoral vote certification. See
Docket No. 2 at 7. As the Supreme Court has long held, “a federal court can act only
to redress injury that fairly can be traced to the challenged action of the defendant,
and not injury that results from the independent action of some third party not before
the court.” Simon, 426 U.S. at 41–42; see also El Paso Cnty., 982 F.3d at 343 (plaintiff
lacks standing where an order granting the requested relief “would not rescind,” and
“accordingly would not redress,” the allegedly harmful act).
Even if their injury were the loss of the right to vote in the Electoral College,
see Docket No. 2 at 6, Plaintiffs’ requested relief would not redress that injury.
Plaintiffs are not asking the Court to order the Vice President to count the NomineeElectors’ votes, but rather that the Vice President “exercise the exclusive authority
and sole discretion in determining which electoral votes to count for a given State,”
or alternatively, to decide that no Arizona electoral votes should count. See Docket
No. 1 ¶ 73. It is well established that a plaintiff lacks standing where it is “uncertain
that granting [the plaintiff] the relief it wants would remedy its injuries.” Inclusive
Comtys. Project, Inc. v. Dep’t of Treasury, 946 F.3d 649, 657–58 (5th Cir. 2019).
Accordingly, the Court finds that the Nominee-Electors lack standing.2

2

Plaintiffs Hoffman and Kern claim without supporting argument that they have standing as
members of the Arizona legislature. Docket No. 2 at 4. This claim fails for the reasons Congressman
Gohmert’s standing argument fails. See supra Part III.A.

12
12a

Case 6:20-cv-00660-JDK Document 37 Filed 01/01/21 Page 13 of 13 PageID #: 991

IV.
Because neither Congressman Gohmert nor the Nominee-Electors have
standing here, the Court is without subject matter jurisdiction to address Plaintiffs’
Emergency Motion or the merits of their claim. HSBC Bank USA, N.A. as Tr. for
Merrill Lynch Mortg. Loan v. Crum, 907 F.3d 199, 202 (5th Cir. 2018). The Court
therefore DISMISSES the case without prejudice.
6R25'(5('DQG6,*1('WKLV 1st

GD\RI January, 2021.

___________________________________
____
____________________
_______________
-(5(0<'.(512'/(
-(
(5(0<
< '.(512'
2 /(
81,7('67$7(6',675,&7-8'*(
81
1,7('
'67$7(6',675,&7-8

13
13a

Case 6:20-cv-00660-JDK Document 38 Filed 01/01/21 Page 1 of 1 PageID #: 992

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
TYLER DIVISION
THE HONORABLE LOUIE
GOHMERT, et al.,
Plaintiffs,
v.
THE HONORABLE MICHAEL R.
PENCE, IN HIS OFFICIAL
CAPACITY AS VICE PRESIDENT OF
THE UNITED STATES,
Defendant.

§
§
§
§
§
§
§
§
§
§
§
§
§

Case No. 6:20-cv-660-JDK

FINAL JUDGMENT
The Court, having considered Plaintiffs’ case and rendered its decision by
opinion issued this same date, hereby enters FINAL JUDGMENT.
It is ORDERED that Plaintiff’s case is DISMISSED WITHOUT
PREJUDICE for lack of subject matter jurisdiction.

All pending motions are

DENIED as MOOT.1
The Clerk of the Court is instructed to close this case.
6R25'(5('DQG6,*1('WKLV 1st

GD\RI January, 2021.

___________________________________
____
____________________
______________
-(5(0<'.(512'/(
-(
(5(0<
< '.(512'
2 /(
81,7('67$7(6',675,&7-8'*(
81
1,7('
'67$7(6',675,&7-8

1

The Court notes that there are several pending motions to intervene. See Docket Nos. 15, 19, 25, 36.
“An existing suit within the court’s jurisdiction is a prerequisite of an intervention.” Kendrick v.
Kendrick, 16 F.2d 744, 745 (5th Cir. 1926). Because the Court lacks subject matter jurisdiction over
this case, there is no live case or controversy in which the interested parties can intervene.

14a

Case: 21-40001

Document: 00515691300

Page: 1

Date Filed: 01/02/2021

United States Court of Appeals
for the Fifth Circuit
Certified as a true copy and issued
as the mandate on Jan 02, 2021

No. 21-40001

Attest:
Clerk, U.S. Court of Appeals, Fifth Circuit

Louie Gohmert; Tyler Bowyer; Nancy Cottle; Jake
Hoffman; Anthony Kern; James R. Lamon; Sam
Moorhead; Robert Montgomery; Loraine Pellegrino;
Greg Safsten; Kelli Ward; Michael Ward,
Plaintiffs—Appellants,
Marian Sheridan; Meshawn Maddock; Mari-Ann Henry;
Amy Facchinello; Michele Lundgren,
Movants—Appellants,
versus
Michael R. Pence,
Defendant—Appellee.
Appeal from the United States District Court
for the Eastern District of Texas
USDC No. 6:20-CV-660

15a

Case: 21-40001

Document: 00515691300

Page: 2

Date Filed: 01/02/2021

No. 21-40001

Before Higginbotham, Smith, and Oldham, Circuit Judges.
Per Curiam:*
This administrative panel is presented with an emergency motion for
expedited appeal. We have appellate jurisdiction under 28 U.S.C. § 1291.
That includes jurisdiction to determine both our and the district court’s
jurisdiction. We have the benefit of the briefing before the district court and
its 13-page opinion styled Order of Dismissal, issued January 1, 2021. That
order adopts the position of the Department of Justice, finding that the
district court lacks jurisdiction because no plaintiff has the standing
demanded by Article III. We need say no more, and we affirm the judgment
essentially for the reasons stated by the district court. We express no view on
the underlying merits or on what putative party, if any, might have standing.
The motion to expedite is dismissed as moot. The mandate shall issue
forthwith.

*

Pursuant to 5th Circuit Rule 47.5, the court has determined that this
opinion should not be published and is not precedent except under the limited
circumstances set forth in 5th Circuit Rule 47.5.4.

2

16a

Determination of controversy as to appointment of
electors
If any State shall have provided, by laws enacted prior to
the day fixed for the appointment of the electors, for its
final determination of any controversy or contest
concerning the appointment of all or any of the electors of
such State, by judicial or other methods or procedures, and
such determination shall have been made at least six days
before the time fixed for the meeting of the electors, such
determination made pursuant to such law so existing on
said day, and made at least six days prior to said time of
meeting of the electors, shall be conclusive, and shall
govern in the counting of the electoral votes as provided
in the Constitution, and as hereinafter regulated, so far as
the ascertainment of the electors appointed by such State
is concerned.
3 U.S.C. § 5.
Credentials of electors; transmission to Archivist of the
United States and to Congress; public inspection
If any State shall have provided, by laws enacted prior to
the day fixed for the appointment of the electors, for its
final determination of any controversy or contest
concerning the appointment of all or any of the electors of
such State, by judicial or other methods or procedures, and
such determination shall have been made at least six days
before the time fixed for the meeting of the electors, such
determination made pursuant to such law so existing on
said day, and made at least six days prior to said time of
meeting of the electors, shall be conclusive, and shall
govern in the counting of the electoral votes as provided
in the Constitution, and as hereinafter regulated, so far as
the ascertainment of the electors appointed by such State
is concerned.
3 U.S.C. § 6.

17a

Counting electoral votes in Congress
Congress shall be in session on the sixth day of January
succeeding every meeting of the electors. The Senate and
House of Representatives shall meet in the Hall of the
House of Representatives at the hour of 1 o’clock in the
afternoon on that day, and the President of the Senate shall
be their presiding officer. Two tellers shall be previously
appointed on the part of the Senate and two on the part of
the House of Representatives, to whom shall be handed, as
they are opened by the President of the Senate, all the
certificates and papers purporting to be certificates of the
electoral votes, which certificates and papers shall be
opened, presented, and acted upon in the alphabetical
order of the States, beginning with the letter A; and said
tellers, having then read the same in the presence and
hearing of the two Houses, shall make a list of the votes as
they shall appear from the said certificates; and the votes
having been ascertained and counted according to the rules
in this subchapter provided, the result of the same shall be
delivered to the President of the Senate, who shall
thereupon announce the state of the vote, which
announcement shall be deemed a sufficient declaration of
the persons, if any, elected President and Vice President of
the United States, and, together with a list of the votes, be
entered on the Journals of the two Houses. Upon such
reading of any such certificate or paper, the President of
the Senate shall call for objections, if any. Every objection
shall be made in writing, and shall state clearly and
concisely, and without argument, the ground thereof, and
shall be signed by at least one Senator and one Member of
the House of Representatives before the same shall be
received. When all objections so made to any vote or paper
from a State shall have been received and read, the Senate
shall thereupon withdraw, and such objections shall be
submitted to the Senate for its decision; and the Speaker
of the House of Representatives shall, in like manner,
submit such objections to the House of Representatives for
its decision; and no electoral vote or votes from any State
which shall have been regularly given by electors whose
18a

appointment has been lawfully certified to according to
section 6 of this title from which but one return has been
received shall be rejected, but the two Houses concurrently
may reject the vote or votes when they agree that such vote
or votes have not been so regularly given by electors
whose appointment has been so certified. If more than one
return or paper purporting to be a return from a State shall
have been received by the President of the Senate, those
votes, and those only, shall be counted which shall have
been regularly given by the electors who are shown by the
determination mentioned in section 5 of this title to have
been appointed, if the determination in said section
provided for shall have been made, or by such successors
or substitutes, in case of a vacancy in the board of electors
so ascertained, as have been appointed to fill such vacancy
in the mode provided by the laws of the State; but in case
there shall arise the question which of two or more of such
State authorities determining what electors have been
appointed, as mentioned in section 5 of this title, is the
lawful tribunal of such State, the votes regularly given of
those electors, and those only, of such State shall be
counted whose title as electors the two Houses, acting
separately, shall concurrently decide is supported by the
decision of such State so authorized by its law; and in such
case of more than one return or paper purporting to be a
return from a State, if there shall have been no such
determination of the question in the State aforesaid, then
those votes, and those only, shall be counted which the two
Houses shall concurrently decide were cast by lawful
electors appointed in accordance with the laws of the
State, unless the two Houses, acting separately, shall
concurrently decide such votes not to be the lawful votes
of the legally appointed electors of such State. But if the
two Houses shall disagree in respect of the counting of
such votes, then, and in that case, the votes of the electors
whose appointment shall have been certified by the
executive of the State, under the seal thereof, shall be
counted. When the two Houses have voted, they shall
immediately again meet, and the presiding officer shall
then announce the decision of the questions submitted. No
19a

votes or papers from any other State shall be acted upon
until the objections previously made to the votes or papers
from any State shall have been finally disposed of.
3 U.S.C. § 15.
Presentment Clause
Every Order, Resolution, or Vote, to Which the
Concurrence of the Senate and House of Representatives
may be necessary (except on a question of Adjournment)
shall be presented to the President of the United States;
and before the Same shall take Effect, shall be approved
by him, or being disapproved by him, shall be repassed by
two thirds of the Senate and House of Representatives,
according to the Rules and Limitations prescribed in the
Case of a Bill.
U.S. CONST. art. I, § 7, cl. 3.
Electors Clause
Each state shall appoint, in such manner as the Legislature
thereof may direct, a number of electors, equal to the
whole number of Senators and Representatives to which
the State may be entitled in the Congress: but no Senator
or Representative, or person holding an office of trust or
profit under the United States, shall be appointed an
elector.
U.S. CONST. art. II, § 1, cl. 2.
Twelfth Amendment
The electors shall meet in their respective states and vote
by ballot for President and Vice-President, one of whom,
at least, shall not be an inhabitant of the same state with
themselves; they shall name in their ballots the person
voted for as President, and in distinct ballots the person
voted for as Vice-President, and they shall make distinct
lists of all persons voted for as President, and of all persons
20a

voted for as Vice-President, and of the number of votes for
each, which lists they shall sign and certify, and transmit
sealed to the seat of the government of the United States,
directed to the President of the Senate;--The President of
the Senate shall, in the presence of the Senate and House
of Representatives, open all the certificates and the votes
shall then be counted;--the person having the greatest
number of votes for President, shall be the President, if
such number be a majority of the whole number of electors
appointed; and if no person have such majority, then from
the persons having the highest numbers not exceeding
three on the list of those voted for as President, the House
of Representatives shall choose immediately, by ballot, the
President. But in choosing the President, the votes shall be
taken by states, the representation from each state having
one vote; a quorum for this purpose shall consist of a
member or members from two-thirds of the states, and a
majority of all the states shall be necessary to a choice.
And if the House of Representatives shall not choose a
President whenever the right of choice shall devolve upon
them, before the fourth day of March next following, then
the Vice-President shall act as President, as in the case of
the death or other constitutional disability of the President.
The person having the greatest number of votes as VicePresident, shall be the Vice-President, if such number be a
majority of the whole number of electors appointed, and if
no person have a majority, then from the two highest
numbers on the list, the Senate shall choose the VicePresident; a quorum for the purpose shall consist of twothirds of the whole number of Senators, and a majority of
the whole number shall be necessary to a choice. But no
person constitutionally ineligible to the office of President
shall be eligible to that of Vice-President of the United
States.
U.S. CONST. amend. XII.

21a

Case 6:20-cv-00660 Document 1 Filed 12/27/20 Page 1 of 28 PageID #: 1

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
TYLER DIVISION
LOUIE GOHMERT, TYLER BOWYER, NANCY
COTTLE, JAKE HOFFMAN, ANTHONY KERN,
JAMES R. LAMON, SAM MOORHEAD,
ROBERT MONTGOMERY, LORAINE
PELLEGRINO, GREG SAFSTEN, KELLI WARD
and MICHAEL WARD,
Plaintiffs,

Case No.

COMPLAINT FOR EXPEDITED
DECLARATORY AND
EMERGENCY INJUNCTIVE RELIEF

v.
(Election Matter)
THE HONORABLE MICHAEL R. PENCE, VICE
PRESIDENT OF THE UNITED STATES, in his
official capacity.
Defendant.
NATURE OF THE ACTION
1.

This civil action seeks an expedited declaratory judgment finding that the elector

dispute resolution provisions in Section 15 of the Electoral Count Act, 3 U.S.C. §§ 5 and 15, are
unconstitutional because these provisions violate the Electors Clause and the Twelfth Amendment
of the U.S. Constitution. U.S. CONST. art. II, § 1, cl. 1 & Amend. XII. Plaintiffs also request
emergency injunctive relief required to effectuate the requested declaratory judgment.
2.

These provisions of Section 15 of the Electoral Count Act are unconstitutional

insofar as they establish procedures for determining which of two or more competing slates of
Presidential Electors for a given State are to be counted in the Electoral College, or how objections
to a proffered slate are adjudicated, that violate the Twelfth Amendment. This violation occurs
because the Electoral Count Act directs the Defendant, Vice President Michael R. Pence, in his
capacity as President of the Senate and Presiding Officer over the January 6, 2021 Joint Session

22a

Case 6:20-cv-00660 Document 1 Filed 12/27/20 Page 2 of 28 PageID #: 2

of Congress: (1) to count the electoral votes for a State that have been appointed in violation of the
Electors Clause; (2) limits or eliminates his exclusive authority and sole discretion under the
Twelfth Amendment to determine which slates of electors for a State, or neither, may be counted;
and (3) replaces the Twelfth Amendment’s dispute resolution procedure – under which the House
of Representatives has sole authority to choose the President.
3.

Section 15 of the Electoral Count Act unconstitutionally violates the Electors

Clause by usurping the exclusive and plenary authority of State Legislatures to determine the
manner of appointing Presidential Electors, and instead gives that authority to the State’s
Executive. Similarly, 3 USC § 5 makes clear that the Presidential electors of a state and their
appointment by the State Executive shall be conclusive.
4.

This is not an abstract or hypothetical question, but a live “case or controversy”

under Article III that is ripe for a declaratory judgment arising from the events of December 14,
2020, where the State of Arizona (and several others) have appointed two competing slates of
electors.
5.

Plaintiffs include the United States Representative for Texas’ First Congressional

District and the entire slate of Republican Presidential Electors for the State of Arizona. The
Arizona Electors have cast Arizona’s electoral votes for President Donald J. Trump on December
14, 2020, at the Arizona State Capitol with the permission and endorsement of the Arizona
Legislature, i.e., at the time, place, and manner required under Arizona state law and the Electoral
Count Act. At the same time, Arizona’s Governor and Secretary of State appointed a separate and
competing slate of electors who cast Arizona’s electoral votes for former Vice-President Joseph
R. Biden, despite the evidence of massive multi-state electoral fraud committed on Biden’s behalf
that changed electoral results in Arizona and in other states such as Georgia, Michigan,

2

23a

Case 6:20-cv-00660 Document 1 Filed 12/27/20 Page 3 of 28 PageID #: 3

Pennsylvania and Wisconsin that have also put forward competing slates of electors (collectively,
the “Contested States”). Collectively, these Contested States have enough electoral votes in
controversy to determine the outcome of the 2020 General Election.
6.

On January 6, 2021, when Congress convenes to count the electoral votes for

President and Vice-President, Plaintiff Representative Gohmert will object to the counting of the
Arizona slate of electors voting for Biden and to the Biden slates from the remaining Contested
States. Rep. Gohmert is entitled to have his objection determined under the Twelve Amendment,
and not through the unconstitutional impositions of a prior Congress by 3 U.S.C. §§ 5 and 15.
7.

Senators have also stated that they may object to the Biden slate of electors from

the Contested States.1
8.

This Complaint addresses a matter of urgent national concern that involves only

issues of law – namely, a determination that Sections 5 and 15 of the Electoral Count Act violate
the Electors Clause and/or the Twelfth Amendment of the U.S. Constitution. The relevant facts
are not in dispute concerning the existence of a live case or controversy between Plaintiffs and
Defendant, ripeness, standing, and other matters related to the justiciability of Plaintiffs’ claims.2

See https://www.forbes.com/sites/jackbrewster/2020/12/17/here-are-the-gop-senators-who
have-hinted-at-defying-mcconnell-by-challenging-election/?sh=506395c34ce3.
1

The facts relevant to the justiciability of Plaintiffs’ claims are laid out below and demonstrate the
certainty or near certainty that the unconstitutional provisions in Section 15 of the Electoral Count
Act will be invoked at the January 6, 2021 Joint Session of Congress to choose the next President,
namely: (1) there are competing slates of electors for Arizona and the other Contested States that
have been or will be submitted to the Electoral College; (2) the Contested States collectively have
sufficient (contested) electoral votes to determine the winner of the 2020 General Election –
President Trump or former Vice President Biden; (3) legislators in Arizona and other Contested
States have contested the certification of their State’s electoral votes by State executives, due to
substantial evidence of election fraud that is the subject of ongoing litigation and investigations;
and (4) Senators and Members of the House of Representatives have expressed their intent to
challenge the electors and electoral votes certified by State executives in the Contested States.

2

3

24a

Case 6:20-cv-00660 Document 1 Filed 12/27/20 Page 4 of 28 PageID #: 4

9.

Because the requested declaratory judgment will terminate the controversy arising

from the conflict between the Twelfth Amendment and the Electoral Count Act, and the facts are
not in dispute, it is appropriate for this Court to grant this relief in a summary proceeding without
an evidentiary hearing or discovery. See Notes of Advisory Committee on Federal Rules of Civil
Procedure, Fed. R. Civ. P. 57.
10.

Accordingly, Plaintiffs have concurrently submitted a motion for a speedy

summary proceeding under Rule 57 of the Federal Rules of Civil Procedure (“FRCP”) to grant the
relief requested herein as soon as possible, and for emergency injunctive relief under Rule 65
thereof consistent with the declaratory judgment requested herein on that same date.
11.

Accordingly, Plaintiffs respectfully request this Court to issue a declaratory

judgment finding that:
A. Sections 5 and 15 of the Electoral Count Act, 3 U.S.C. §§ 5 and 15, are
unconstitutional because they violate the Twelfth Amendment, U.S. CONST. art.
II, § 1, cl. 1 & amend. XII on the face of it; and further violate the Electors Clause;
B. That Vice-President Pence, in his capacity as President of Senate and Presiding
Officer of the January 6, 2021 Joint Session of Congress under the Twelfth
Amendment, is subject solely to the requirements of the Twelfth Amendment and
may exercise the exclusive authority and sole discretion in determining which
electoral votes to count for a given State, and must ignore and may not rely on any
provisions of the Electoral Count Act that would limit his exclusive authority and
his sole discretion to determine the count, which could include votes from the slates
of Republican electors from the Contested States;

4

25a

Case 6:20-cv-00660 Document 1 Filed 12/27/20 Page 5 of 28 PageID #: 5

C. That, with respect to competing slates of electors from the State of Arizona or other
Contested States, the Twelfth Amendment contains the exclusive dispute
resolution mechanisms, namely, that (i) Vice-President Pence determines which
slate of electors’ votes count, or neither, for that State; (ii) how objections from
members of Congress to any proffered slate of electors is adjudicated; and (iii) if
no candidate has a majority of 270 elector votes, then the House of Representatives
(and only the House of Representatives) shall choose the President where “the
votes [in the House of Representatives] shall be taken by states, the representation
from each state having one vote,” U.S. CONST. amend. XII;
D. That with respect to the counting of competing slates of electors, the alternative
dispute resolution procedure or priority rule in 3 U.S.C. § 15, together with its
incorporation of 3 U.S.C. § 5, shall have no force or effect because it nullifies and
replaces the Twelfth Amendment rules above with an entirely different procedure;
and
E. Issue any other declaratory judgments or findings or injunctive relief necessary to
support or effectuate the foregoing declaratory judgments.
JURISDICTION AND VENUE
12.

This Court has subject matter jurisdiction under 28 U.S.C. § 1331 which provides,

“The district courts shall have original jurisdiction of all civil actions arising under the
Constitution, laws, or treaties of the United States.”
13.

This Court also has subject matter jurisdiction under 28 U.S.C. § 1343 because this

action involves a federal election for President of the United States. “A significant departure from
the legislative scheme for appointing Presidential electors presents a federal constitutional

5

26a

Case 6:20-cv-00660 Document 1 Filed 12/27/20 Page 6 of 28 PageID #: 6

question.” Bush v. Gore, 531 U.S. 98, 113 (2000) (Rehnquist, C.J., concurring); Smiley v. Holm,
285 U.S. 355, 365 (1932).
14.

The jurisdiction of the Court to grant declaratory relief is conferred by 28 U.S.C.

§§ 2201 and 2202 and by Rule 57, Fed. R. Civ. P., and emergency injunctive relief by Rule 65,
Fed. R. Civ. P.
15.

Venue is proper because Plaintiff Gohmert resides in Tyler, Texas, he maintains his

primary congressional office in Tyler, and no real property is involved in the action. 28 U.S.C. §
1391(e)(1).
THE PARTIES
16.

Plaintiff Louie Gohmert is a duly elected member of the United States House of

Representatives for the First Congressional District of Texas. On November 3, 2020 he won reelection of this Congressional seat and plans to attend the January 6, 2021 session of Congress.
He resides in the city of Tyler, in Smith County, Texas.
17.

Each of the following Plaintiffs is a resident of Arizona, a registered Arizona voter

and a Republican Party Presidential Elector on behalf of the State of Arizona, who voted their
competing slate for President and Vice President on December 14, 2020: a) Tyler Bowyer, a
resident of Maricopa County and a Republican National Committeeman; b) Nancy Cottle, a
resident of Maricopa County and Second Vice-Chairman of the Maricopa County Republican
Committee; c) Jake Hoffman, a resident of Maricopa County and member-elect of the Arizona
House of Representatives; d) Anthony Kern, a resident of Maricopa County and an outgoing
member of the Arizona House of Representatives; e) James R. Lamon, a resident of Maricopa
County; f) Samuel Moorhead, a resident of Gila County; g) Robert Montgomery, a resident of
Cochise County and Republican Party Chairman for Cochise County; h) Loraine Pellegrino, a

6

27a

Case 6:20-cv-00660 Document 1 Filed 12/27/20 Page 7 of 28 PageID #: 7

resident of Maricopa County; i) Greg Safsten, a resident of Maricopa County and Executive
Director of the Republican Party of Arizona; j) Kelli Ward, a resident of Mohave County and Chair
of the Arizona Republican Party; and k) Michael Ward, a resident of Mohave County.
18.

The above eleven plaintiffs constitute the full slate of the Arizona Republican

party’s nominees for presidential electors (the “Arizona Electors”).
19.

The Defendant is Vice President Michael R. Pence named in his official capacity

as the Vice President of the United States. The declaratory and injunctive relief requested herein
applies to his duties as President of the Senate and Presiding Officer at the January 6, 2021 Joint
Session of Congress carried out pursuant to the Electoral Count Act and the Twelfth Amendment.
STATEMENT OF FACTS
20.

The Plaintiffs include a United States Representative from Texas, the entire slate

of Republican Presidential Electors for the State of Arizona as well as an outgoing and incoming
member of the Arizona Legislature. On December 14, 2020, pursuant to the requirements of
applicable state laws and the Electoral Count Act, the Arizona Electors, with the knowledge and
permission of the Republican-majority Arizona Legislature, convened at the Arizona State Capitol,
and cast Arizona’s electoral votes for President Donald J. Trump and Vice President Michael R.
Pence.3 On the same date, the Republican Presidential Electors for the States of Georgia,4

See GOP Elector Nominees cast votes for Trump in Arizona, Georgia, Pennsylvania, by Dave
Boyer, The Washington Times, December 14, 2020.
https://www.washingtontimes.com/news/2020/dec/14/gop-electors-cast-votes-trump-georgiapennsylvania/.

3

4

See id.
7

28a

Case 6:20-cv-00660 Document 1 Filed 12/27/20 Page 8 of 28 PageID #: 8

Pennsylvania5 and Wisconsin6 met at their respective State Capitols to cast their States’ electoral
votes for President Trump and Vice President Pence.
21.

Michigan’s Republican electors attempted to vote at their State Capitol on

December 14th but were denied entrance by the Michigan State Police. Instead, they met on the
grounds of the State Capitol and cast their votes for President Trump and Vice President Pence
vote.7
22.

On December 14, 2020, in Arizona and the other States listed above, the

Democratic Party’s slate of electors convened in their respective State Capitols to cast their
electoral votes for former Vice President Joseph R. Biden and Senator Kamala Harris. On the
same day, Arizona Governor Doug Ducey and Arizona Secretary of State Katie Hobbs submitted
the Certificate of Ascertainment with the Biden electoral votes pursuant to the National Archivist
pursuant to the Electoral Count Act.8
23.

Accordingly, there are now competing slates of Republican and Democratic

electors in five States with Republican majorities in both houses of their State Legislatures –
Arizona, Georgia, Michigan, Pennsylvania, and Wisconsin (i.e., the Contested States) – that

5

See id.

See Wisconsin GOP Electors Meet to Cast their own Votes Too Just in Case, by Nick Viviani,
WMTV, NBC15.com, December 14, 2020, https://www.nbc15.com/2020/12/14/wisconsin-gopelectors-meet-to-cast-their-own-votes-too-just-in-case/ last visited December 14, 2020.
6

See Michigan Police Block GOP Electors from Entering Capitol, by Jacob Palmieri, the
Palmieri Report, December 14, 2020, https://thepalmierireport.com/michigan-state-police-blockgop-electors-from-entering-capitol/.
7

See Democratic Electors Cast Ballots in Arizona for First Time Since 1996, by Nicole Valdes,
ABC15.com, December 14, 2020, available at: https://www.abc15.com/news/election2020/democratic-electors-cast-ballots-in-arizona-for-first-time-since-1996.
8

8

29a

Case 6:20-cv-00660 Document 1 Filed 12/27/20 Page 9 of 28 PageID #: 9

collectively have 73 electoral votes, which are more than sufficient to determine the winner of the
2020 General Election.9
24.

The Arizona Electors, along with Republican Presidential Electors in Georgia,

Michigan, Pennsylvania, and Wisconsin, took this step as a result of the extraordinary events and
substantial evidence of election fraud and other illegal conduct before, during and after the 2020
General Election in these States. The Arizona Legislature has conducted legislative hearings into
these voting fraud allegations, and is actively investigating these matters, including issuing
subpoenas of Maricopa County, Arizona (which accounts for over 60% of Arizona’s population
and voters) voting machines for forensic audits.10
25.

On December 14, 2020, members of the Arizona Legislature passed a Joint

Resolution in which they: (1) found that the 2020 General Election “was marred by irregularities
so significant as to render it highly doubtful whether the certified result accurately represents the
will of the voters;” (2) invoked the Arizona Legislature’s authority under the Electors Clause and
5 U.S.C. § 2 to declare the 2020 General Election a failed election and to directly appoint Arizona’s
electors; (3) resolved that the Plaintiff Arizona Electors’ “11 electoral votes be accepted for …
Donald J. Trump or to have all electoral votes nullified completely until a full forensic audit can
be conducted;” and (4) further resolved “that the United States Congress is not to consider a slate

Republican Presidential Electors in the States of Nevada and New Mexico, which have
Democrat majority state legislature, also met on December 14, 2020, at their State Capitols to
cast their votes for President Trump and Vice President Pence.
9

Maricopa County election officials have refused to comply with these subpoenas or to turn
over voting machines or voting records and have sued to quash the subpoena. Plaintiff Arizona
Electors have moved to intervene in this Arizona state proceeding. See generally Maricopa Cty.
v. Fann, Case No. CV2020-016840 (Az. Sup. Ct. Dec. 18, 2020).

10

9

30a

Case 6:20-cv-00660 Document 1 Filed 12/27/20 Page 10 of 28 PageID #: 10

of electors from the State of Arizona until the Legislature deems the election to be final and all
irregularities resolved.”11
26.

Public reports have also highlighted wide-spread election fraud in the other

Contested States that prompted competing Electors’ slates. 12
27.

Republican Senators and Republican Members of the House of Representatives

have also expressed their intent to oppose the certified slates of electors from the Contested States
due to the substantial evidence of election fraud in the 2020 General Election. Multiple Senators
and House Members have stated that they will object to the Biden electors at the January 6, 2021
Joint Session of Congress.13 Plaintiff Gohmert will object to the counting of the Arizona electors
voting for Biden, as well as to the Biden electors from the remaining Contested States.
28.

Based on the foregoing facts, Defendant Vice President Pence, in his capacity as

President of the Senate and Presiding Officer at the January 6, 2021 Joint Session of Congress to
select the next President, will be presented with the following circumstances: (1) competing slates
of electors from the State of Arizona and the other Contested States (namely, Georgia, Michigan,
Pennsylvania, and Wisconsin) (2) that represent sufficient electoral votes (a) if counted, to
determine the winner of the 2020 General Election, or (b) if not counted, to deny either President
Trump or former Vice President Biden sufficient votes to win outright; and (3) objections from at

See Ex. A, “A Joint Resolution of the 54th Legislature, State of Arizona, To The 116th Congress,
Office of the President of the Senate Presiding,” December 14, 2020 (“December 14, 2020 Joint
Resolution”).

11

See The Immaculate Deception, Six Key Dimensions of Election Irregularities, The Navarro Report.
https://bannonswarroom.com/wp-content/uploads/2020/12/The-Immaculate-Deception-12.15.20-1.pdf
12

See, e.g., Dueling Electors and the Upcoming Joint Session of Congress, by Zachary Steiber,
Epoch Times, Dec. 17, 2020, available at: https://www.theepochtimes.com/explainer-duelingelectors-and-the-upcoming-joint-session-of-congress_3622992.html.

13

10

31a

Case 6:20-cv-00660 Document 1 Filed 12/27/20 Page 11 of 28 PageID #: 11

least one Senator and at least one Member of the House of Representatives to the counting of
electoral votes from one or more of the Contested States.
29.

The choice between the Twelfth Amendment and 3 U.S.C. § 15 raises important

procedural differences. In the incoming 117th Congress, the Republican Party has a majority in
27 of the House delegations that would vote under the Twelfth Amendment. The Democrat Party
has a majority in 20 of those House delegations, and the two parties are evenly divided in three of
those delegations. By contrast, under 3 U.S.C. § 15, Democrats have a ten- or eleven-seat majority
in the House, depending on the final outcome of the election in New York’s 22nd District.
30.

Accordingly, it is the foregoing conflict between the Twelfth Amendment of the

U.S. Constitution and Section 15 of the Electoral Count Act that establish the urgency for this
Court to issue a declaratory judgment that Section 15 of the Electoral Count Act is unconstitutional.
RELEVANT CONSTITUTIONAL AND STATUTORY PROVISIONS
31.

Presidential Electors Clause. The U.S. Constitution grants State Legislatures the

exclusive authority to appoint Presidential Electors:
Each State shall appoint, in such Manner as the Legislature thereof may direct, a
number of electors, equal to the whole Number of Senators and Representatives to
which the State may be entitled in the Congress: but no Senator or Representative,
or Person holding an Office of Trust or Profit under the United States, shall be
appointed an Elector. U.S. CONST. art. II, § 1 ("Electors Clause").
32.

The Supreme Court has affirmed that the “power and jurisdiction of the state

[legislature]” to select electors “is exclusive,” McPherson v. Blacker, 146 U.S. 1, 11 (1892); this
power “cannot be taken from them or modified” by statute or even the state constitution,” and
“there is no doubt of the right of the legislature to resume the power at any time.” Id. at 10
(citations omitted).

In Bush v. Gore, 531 U.S. 98 (2000), the Supreme Court reaffirmed

McPherson’s holding that “the state legislature’s power to select the manner for appointing

11

32a

Case 6:20-cv-00660 Document 1 Filed 12/27/20 Page 12 of 28 PageID #: 12

electors is plenary,” Bush, 531 U.S. at 104 (citing McPherson, 146 U.S. at 35), noting that the state
legislature “may, if it so chooses, select the electors itself,” and that even after deciding to select
electors through a statewide election, “can take back the power to appoint electors.” Id. (citation
omitted).
33.

The Twelfth Amendment. The Twelfth Amendment sets forth the procedures for

counting electoral votes and for resolving disputes over whether and which electoral votes may be
counted for a State. The first section describes the meeting of the Electoral College and the
procedures up to the casting of the electoral votes by the Presidential Electors in their respective
states, which occurred on December 14, 2020, with respect to the 2020 General Election:
The electors shall meet in their respective states and vote by ballot for President
and Vice-President, one of whom, at least, shall not be an inhabitant of the same
state with themselves; they shall name in their ballots the person voted for as
President, and in distinct ballots the person voted for as Vice-President, and they
shall make distinct lists of all persons voted for as President, and of all persons
voted for as Vice-President, and of the number of votes for each, which lists they
shall sign and certify, and transmit sealed to the seat of the government of the
United States, directed to the President of the Senate.
U.S. CONST. amend. XII.
34.

The second section describes how Defendant Vice President Pence, in his role as

President of the Senate and Presiding Officer for the January 6, 2021 Joint Session of Congress,
shall “count” the electoral votes.
The President of the Senate shall, in the presence of the Senate and House of
Representatives, open all the certificates and the votes shall then be counted[.]
U.S. CONST. amend. XII.
35.

Under the Twelfth Amendment, Defendant Pence alone has the exclusive authority

and sole discretion to open and permit the counting of the electoral votes for a given state, and
where there are competing slates of electors, or where there is objection to any single slate of
electors, to determine which electors’ votes, or whether none, shall be counted. Notably, neither
12

33a

Case 6:20-cv-00660 Document 1 Filed 12/27/20 Page 13 of 28 PageID #: 13

the Twelfth Amendment nor the Electoral Count Act, provides any mechanism for judicial review
of the Presiding Officer’s determinations.14 Instead, the Twelfth Amendment and the Electoral
Count Act adopt different procedures for the President of the Senate (Twelfth Amendment) or both
Houses of Congress (Electoral Count Act) to resolve any such disputes and the authority for the
final determinations, in the event of disagreement, to different parties; namely, the Electoral Count
Act gives it to the Executive of the State; while the Twelfth Amendment vests sole authority with
the Vice President.
36.

The third section of the Twelfth Amendment sets forth the procedures for selecting

the President (solely) by the House of Representatives, in the event that no candidate has received
a majority of electoral votes counted by the President of the Senate.
The person having the greatest number of votes for President, shall be the President,
if such number be a majority of the whole number of electors appointed; and if no
person have such majority, then from the persons having the highest numbers not
exceeding three on the list of those voted for as President, the House of
Representatives shall choose immediately, by ballot, the President. But in choosing
the President, the votes shall be taken by states, the representation from each state
having one vote; a quorum for this purpose shall consist of a member or members
from two-thirds of the states, and a majority of all the states shall be necessary to
a choice. And if the House of Representatives shall not choose a President
whenever the right of choice shall devolve upon them, before the fourth day of
March next following, then the Vice-President shall act as President, as in the case
of the death or other constitutional disability of the President.
U.S. CONST. amend. XII (emphasis added).

See, e.g., Nathan L. Colvin & Edward B. Foley, The Twelfth Amendment: A Constitutional
Ticking Time Bomb, U. of Miami L. Rev. 64:475, 526 (2010) (discussing reviews of the Electoral
Count Act’s (“ECA”) legislative history and concluding that, “[o]ne of the more thorough reviews
of the legislative history of the ECA reveals that Congress considered giving the Court some role
in the process but rejected the idea every time, and it was clear that Congress did not think the
Court had a constitutional role nor did it believe that the Court should have any jurisdiction at all.”
Plaintiffs agree that resolution of disputes before Congress, arising on January 6, 2021, over
competing slates of electors, or objections to any slate of electors, are matters outside the purview
of federal courts; but the federal courts must determine whether the ECA is unconstitutional. This
position is fully consistent with the declaratory judgment requested herein.
14

13

34a

Case 6:20-cv-00660 Document 1 Filed 12/27/20 Page 14 of 28 PageID #: 14

37.

There are four key features of this Twelfth Amendment procedure that should be

noted when comparing it with the Electoral Count Act’s procedures: (1) the President is to be
chosen solely by the House of Representatives, with no role for the Senate; (2) votes are taken by
State (with one vote per State), rather than by individual House members; (3) the President is
deemed the candidate that receives the majority of States’ votes, rather than a majority of
individual House members’ votes; and (4) there are no other restrictions on this majority rule
provision; in particular, no “tie breaker” or priority rules based on the manner or State authority
that originally appointed the electors on December 14, 2020 as is the case under the Electoral
Count Act (which gives priority to electors’ certified by the State’s executive).
38.

The Electoral Count Act. The Electoral Count Act of 1887, as subsequently

amended, includes a number of provisions that are in direct conflict with the text of the Electors
Clause and the Twelfth Amendment.
39.

Sections 5 and 15 of the Electoral Count Act adopt an entirely different set of

procedures for the counting of electoral votes, for addressing situations where one candidate does
not receive a majority, and for resolving disputes. Sections 16 to 18 of the Electoral Count Act
provide additional procedural rules governing the Joint Session of Congress (to be held January 6,
2021 for the 2020 General Election).
40.

The first part of Section 15 is consistent with the Twelfth Amendment insofar as it

provides that “the President of the Senate shall be their presiding officer” and that “all the
certificates and papers purporting to be certificates of the electoral votes” are to be “opened by the
President of the Senate.” 3 U.S.C. § 15. However, Section 15 diverges from the Twelfth
Amendment by adopting procedures for the President of the Senate to “call for objections,” and if
there are objections made in writing by one Senator and one Member of the House of

14

35a

Case 6:20-cv-00660 Document 1 Filed 12/27/20 Page 15 of 28 PageID #: 15

Representatives, then this shall trigger a dispute-resolution procedure found nowhere in the
Twelfth Amendment.
41.

The Section 15’s dispute resolution procedures are lengthy and reproduced in their

entirety below:
When all objections so made to any vote or paper from a State shall have been
received and read, the Senate shall thereupon withdraw, and such objections shall
be submitted to the Senate for its decision; and the Speaker of the House of
Representatives shall, in like manner, submit such objections to the House of
Representatives for its decision; and no electoral vote or votes from any State which
shall have been regularly given by electors whose appointment has been lawfully
certified to according to section 6 of this title [3 USCS § 6]15 from which but one
return has been received shall be rejected, but the two Houses concurrently may
reject the vote or votes when they agree that such vote or votes have not been so
regularly given by electors whose appointment has been so certified. If more than
one return or paper purporting to be a return from a State shall have been received
by the President of the Senate, those votes, and those only, shall be counted which
shall have been regularly given by the electors who are shown by the determination
mentioned in section 5 [3 USCS § 5] of this title to have been appointed, if the
determination in said section provided for shall have been made, or by such
successors or substitutes, in case of a vacancy in the board of electors so
ascertained, as have been appointed to fill such vacancy in the mode provided by
the laws of the State; but in case there shall arise the question which of two or more
of such State authorities determining what electors have been appointed, as
mentioned in section 5 of this title [3 USCS § 5], is the lawful tribunal of such State,
the votes regularly given of those electors, and those only, of such State shall be
counted whose title as electors the two Houses, acting separately, shall concurrently
decide is supported by the decision of such State so authorized by its law; and in
such case of more than one return or paper purporting to be a return from a State,
if there shall have been no such determination of the question in the State aforesaid,
then those votes, and those only, shall be counted which the two Houses shall
concurrently decide were cast by lawful electors appointed in accordance with the
laws of the State, unless the two Houses, acting separately, shall concurrently
decide such votes not to be the lawful votes of the legally appointed electors of such
3 U.S.C. § 6 is inconsistent with the Electors Clause—which provides that electors “shall sign
and certify, and transmit sealed to the seat of the government of the United States” the results of
their vote, U.S. Const. art. II, § 1, cl. 2-3—because § 6 relies on state executives to forward the
results of the electors’ vote to the Archivist for delivery to Congress. 3 U.S.C. § 6. Although the
means of delivery are arguably inconsequential, the Constitution vests state executives with no
role whatsoever in the process of electing a President. A state executive lends no official
imprimatur to a given slate of electors under the Constitution.
15

15

36a

Case 6:20-cv-00660 Document 1 Filed 12/27/20 Page 16 of 28 PageID #: 16

State. But if the two Houses shall disagree in respect of the counting of such votes,
then, and in that case, the votes of the electors whose appointment shall have been
certified by the executive of the State, under the seal thereof, shall be counted.
When the two Houses have voted, they shall immediately again meet, and the
presiding officer shall then announce the decision of the questions submitted. No
votes or papers from any other State shall be acted upon until the objections
previously made to the votes or papers from any State shall have been finally
disposed of.
3 U.S.C. § 15 (emphasis added).
42.

First, the Electoral Count Act submits disputes over the “count” of electoral votes

to both the House of Representatives and to the Senate. The Twelfth Amendment envisages no
such role for both Houses of Congress. The President of the Senate, and the President of the Senate
alone, shall “count” the electoral votes. This intent is borne out by a unanimous resolution attached
to the final Constitution that described the procedures for electing the first President (i.e., for a
time when there would not already be a Vice President), stating in relevant part “that the Senators
should appoint a President of the Senate, for the sole Purpose of receiving, opening and counting
the Votes for President.” 2 M. Farrand, RECORDS OF THE FEDERAL CONVENTION OF 1787, at 666
(1911). For all subsequent elections, when there would be a Vice President to act as President of
the Senate, the Constitution vests the opening and counting in the Vice President.
43.

Second, the Electoral Count Act gives both the House of Representatives and the

Senate the power to vote, or “decide,” which of two or more competing slates of electors shall be
counted, and it requires the concurrence of both to “count” the electoral votes for one of the
competing slates of electors.
44.

Under the Twelfth Amendment, the President of the Senate has the sole authority

to count votes in the first instance, and then the House may do so only in the event that no candidate
receives a majority counted by the President of the Senate. There is no role for the Senate to
participate in choosing the President.
16

37a

Case 6:20-cv-00660 Document 1 Filed 12/27/20 Page 17 of 28 PageID #: 17

45.

Third, the Electoral Count Act eliminates entirely the unique mechanism by which

the House of Representatives under the Twelve Amendment is to choose the President, namely,
where “the votes shall be taken by states, the representation for each state having one vote.” U.S.
CONST. amend. XII. The Electoral Count Act is silent on how the House of Representatives is to
“decide” which electoral votes were cast by lawful electors.
46.

Fourth, the Electoral Count Act adopts a priority rule, or “tie breaker,” “if the two

Houses shall disagree in respect of counting of such votes,” in which case “the votes of the electors
whose appointment shall have been certified by the executive of the State … shall be counted.”
This provision not only conflicts with the President of the Senate’s exclusive authority and sole
discretion under the Twelfth Amendment to decide which electoral votes to count, but also with
the State Legislature’s exclusive and plenary authority under the Electors Clause to appoint the
Presidential Electors for their State.
47.

The Electoral Count Act is unconstitutional because it exceeds the power of

Congress to enact. It is well settled that “one legislature may not bind the legislative authority of
its successors,” United States v. Winstar Corp., 518 U.S. 839, 872 (1996), which is a foundational
and “centuries-old concept,” id., that traces to Blackstone’s maxim that “Acts of parliament
derogatory from the power of subsequent parliaments bind not.” Id. (quoting 1 WILLIAM
BLACKSTONE, COMMENTARIES *90). “There is no constitutionally prescribed method by
which one Congress may require a future Congress to interpret or discharge a constitutional
responsibility in any particular way.” Laurence H. Tribe, Erog v. Hsub and Its Disguises: Freeing
Bush v. Gore from Its Hall of Mirrors, 115 HARV. L. REV. 170, 267 n.388 (2001).
48.

The Electoral Count Act also violates the Presentment Clause by purporting to

create a type of bicameral order, resolution, or vote that is not presented to the President. See U.S.

17

38a

Case 6:20-cv-00660 Document 1 Filed 12/27/20 Page 18 of 28 PageID #: 18

CONST. art. I, § 7, cl. 3 (“Every Order, Resolution, or Vote, to Which the Concurrence of the
Senate and House of Representatives may be necessary (except on a question of Adjournment)
shall be presented to the President of the United States; and before the Same shall take Effect, shall
be approved by him, or being disapproved by him, shall be repassed by two thirds of the Senate
and House of Representatives, according to the Rules and Limitations prescribed in the Case of a
Bill.”)
49.

The House and Senate cannot resolve the issues that the Electoral Count Act asks

them to resolve without either a supermajority in both houses or presentment. The Electoral Count
Act similarly restricts the authority of the House of Representatives and the Senate to control their
internal discretion and procedures pursuant to Article I, Section 5 which provides that “[e]ach
House may determine the Rules of its Proceedings …” U.S. CONST. art. I, § 5, cl. 2.
50.

Further, the Electoral Count Act improperly delegates tie-breaking authority to

State executives (who have no agency under the Electors Clause or election amendments) when a
State presents competing slates that Congress cannot resolve, or when an objection is presented to
a particular slate of electors.
51.

The Electoral Count Act also violates the non-delegation doctrine, the separation-

of-powers and anti-entrenchment doctrines. See generally Chris Land & David Schultz, On the
Unenforceability of the Electoral Count Act, 13 Rutgers J.L. & Pub. Policy 340, 364-377 (2016).
JUSTICIABILITY AND JURISDICTION
52.

This Court Can Grant Declaratory Judgment in a Summary Proceeding. This

Court has the authority to enter a declaratory judgment and to provide injunctive relief pursuant to
Rules 57 and 65 of the Federal Rules of Civil Procedure and 28 U.S.C. §§ 2201 and 2202. The
court may order a speedy hearing of a declaratory judgment action. Fed. Rules Civ. Proc. R. 57,

18

39a

Case 6:20-cv-00660 Document 1 Filed 12/27/20 Page 19 of 28 PageID #: 19

Advisory Committee Notes. A declaratory judgment is appropriate when it will “terminate the
controversy” giving rise to the proceeding. Id. Inasmuch as it often involves only an issue of law
on undisputed or relatively undisputed facts, it operates frequently as a summary proceeding,
justifying docketing the case for early hearing as on a motion. Id.
53.

As described above, Plaintiffs’ claims involve legal issues only – specifically,

whether the Electoral Count Act violates the Twelfth Amendment of the U.S. Constitution – that
do not require this court to resolve any disputed factual issues.
54.

Moreover, the factual issues related to the justiciability of Plaintiffs’ claims are not

in dispute. To assist this Court to grant the relief on the expedited basis requested herein, Plaintiffs
address a number of likely objections to this Court’s jurisdiction and the justiciability of Plaintiffs’
claims that may be raised by Defendant.
55.

Plaintiffs Have Standing. Plaintiffs have standing as including a Member of the

House of Representatives, Members of the Arizona Legislature, and as Presidential Electors for
the State of Arizona.
56.

Prior to December 14, 2020, Plaintiff Arizona Electors had standing under the

Electors Clause as candidates for the office of Presidential Elector because, under Arizona law, a
vote cast for the Republican Party’s President and Vice President is cast for the Republican
Presidential Electors. See ARS § 16-212. Accordingly, Plaintiff Arizona Electors, like other
candidates for office, “have a cognizable interest in ensuring that the final vote tally reflects the
legally valid votes cast,” as “[a]n inaccurate vote tally is a concrete and particularized injury to
candidates such as the Electors.” Carson v. Simon, 978 F.3d 1051, 1057 (8th Cir. 2020) (affirming
that Presidential Electors have Article III and prudential standing under Electors Clause). See also
Wood v. Raffensperger, No. 20-14418, 2020 WL 7094866, *10 (11th Cir. Dec. 5, 2020) (affirming

19

40a

Case 6:20-cv-00660 Document 1 Filed 12/27/20 Page 20 of 28 PageID #: 20

that if Plaintiff voter had been a candidate for office “he could assert a personal, distinct injury”
required for standing); Trump v. Wis. Elections Comm’n, No. 20-cv-1785, 2020 U.S. Dist. LEXIS
233765 at *26 (E.D. Wis. Dec. 12, 2020) (President Trump, “as candidate for election, has a
concrete particularized interest in the actual results of the election.”).
57.

But for the alleged wrongful conduct of Arizona executive branch and Maricopa

County officials under color of law, by certifying a fraudulently produced election result in Mr.
Biden’s favor, the Plaintiff Arizona Electors would have been certified as the presidential electors
for Arizona, and Arizona’s Governor and Secretary of State would have transmitted uncontested
votes for Donald J. Trump and Michael R. Pence to the Electoral College. The certification and
transmission of a competing slate of Biden electors has resulted in a unique injury that only
Plaintiff Arizona Electors could suffer, namely, having a competing slate of electors take their
place and their votes in the Electoral College.
58.

The upcoming January 6, 2021 Joint Session of Congress provides further grounds

of standing for the requested declaratory judgment that the Electoral Count Act is unconstitutional.
Then, Plaintiffs are certain or nearly certain to suffer an injury-in-fact caused by Defendant Vice
President Pence, acting as Presiding Officer, if Defendant ignores the Twelfth Amendment and
instead follows the procedures in Section 15 of the Electoral Count Act to resolve the dispute over
which slate of Arizona electors is to be counted.
59.

The Twelfth Amendment gives Defendant exclusive authority and sole discretion

as to which set of electors to count, or not to count any set of electors; if no candidate receives a
majority of electoral votes, then the President is to be chosen by the House, where “the votes shall
be taken by States, the representation from each state having one vote.” U.S. CONST. amend.
XII. If Defendant Pence instead follows the procedures in Section 15 of the Electoral Count Act,

20

41a

Case 6:20-cv-00660 Document 1 Filed 12/27/20 Page 21 of 28 PageID #: 21

Plaintiffs’ electoral votes will not be counted because (a) the Democratic majority House of
Representatives will not “decide” to count the electoral votes of Plaintiff Republican electors; and
(b) either the Senate will concur with the House not to count their votes, or the Senate will not
concur, in which case, the electoral votes cast by Biden’s electors will be counted because the
Biden slate of electors was certified by Arizona’s executive.
60.

It is sufficient for the purposes of declaratory judgment that the injury is threatened.

The declaratory and injunctive relief requested by Plaintiffs “may be made before actual
completion of the injury-in-fact required for Article III standing,” namely, the application of
Section 15 of the Electoral Count Act, rather than the Twelfth Amendment to resolve disputes over
which of two competing slates of electors to count “if the plaintiff can show an actual present harm
or significant possibility of future harm to demonstrate the need for pre-enforcement review.” 10
FED. PROC. L. ED. § 23.26 (“Standing to Seek Declaratory Judgment”) (citations omitted).
61.

Plaintiffs have demonstrated above that this injury-in-fact is to occur at the January

6, 2021 Joint Session of Congress, and they seek the requested declaratory and injunctive relief
“only in the last resort, and as a necessity in the determination of a vital controversy.” Id.
62.

Plaintiffs Present a Live “Case or Controversy.” Plaintiffs’ claims present a live

“case or controversy” with the Defendant, rather than hypothetical or abstract dispute, that can be
litigated and decided by this Court through the requested declaratory and injunctive relief. Here
there is a clear threat of the application of an unconstitutional statute, Section 15 of the Electoral
Count Act, which is sufficient to establish the requisite case or controversy. See, e.g., Navegar,
Inc. v. U.S., 103 F.3d 994, 998 (D.C. Cir. 1997) (“the threat of prosecution provides the foundation
of justiciability as a constitutional and prudential matter, and the Declaratory Judgments Act
provides the mechanism for seeking pre-enforcement review in federal court.”).

21

42a

Case 6:20-cv-00660 Document 1 Filed 12/27/20 Page 22 of 28 PageID #: 22

63.

First, the events of December 14, 2020, gave rise to two competing slates of electors

for the State of Arizona: the Plaintiff Arizona Electors, supported by Arizona State legislators (as
evidenced by the December 14, 2020 Joint Resolution and the participation of Arizona legislator
Plaintiffs), who cast their electoral votes for President Trump and Vice President Pence, and one
certified by the Arizona state executives who cast their votes for former Vice President Biden and
Senator Harris. Second, the text of the Twelfth Amendment of the Constitution expressly commits
to the Defendant Vice President Pence, acting as the President of the Senate and Presiding Officer
for the January 6, 2021 Joint Session of Congress, the authority and discretion to “count” electoral
votes, i.e., deciding in his sole discretion as to which one of the two, or neither, set of electoral
votes shall be counted. The Electoral Count Act similarly designates Defendant as the Presiding
Officer responsible for opening and counting electoral votes, but sets forth a different set of
procedures, inconsistent with the Twelfth Amendment, for deciding which of two or more
competing slates of electors and electoral votes, or neither, shall be counted.
64.

Accordingly, a controversy presently exists due to: (1) the existence of competing

slates of electors for Arizona and the other Contested States, and (2) distinct and inconsistent
procedures under the Twelfth Amendment and the Electoral Count Act to determine which slate
of electors and their electoral votes, or neither, shall be counted in choosing the next President.
Further, this controversy must be resolved at the January 6, 2021 Joint Session of Congress.
Finally, the Constitution expressly designates Defendant Pence as the individual who decides
which set of electoral votes, or neither, to count, and the requested declaratory judgment that the
procedures under Electoral Count Act are unconstitutional is necessary to ensure that Defendant
Pence counts electoral votes in a manner consistent with the Twelfth Amendment of the U.S.
Constitution.

22

43a

Case 6:20-cv-00660 Document 1 Filed 12/27/20 Page 23 of 28 PageID #: 23

65.

The injuries that Plaintiffs assert affect the procedure by which the status of their

votes will be considered, which lowers the thresholds for immediacy and redressability under this
Circuit’s and the Supreme Court’s precedents. Nat’l Treasury Employees Union v. U.S., 101 F.3d
1423, 1428-29 (D.C. Cir. 1996); Lujan v. Defenders of Wildlife, 504 U.S. 555, 571-72 & n.7
(1992). Similarly, a plaintiff with concrete injury can invoke Constitution’s structural protections
of liberty. Bond v. United States, 564 U.S. 211, 222-23 (2011).
66.

Plaintiffs’ Claims Are Ripe for Adjudication. Plaintiffs’ claims are ripe for the

same reasons that they present a live “case or controversy” within the meaning of Article III.
“[T]he ripeness doctrine seeks to separate matters that are premature for review because the injury
is speculative and may never occur from those cases that are appropriate for federal court action.”
Roark v. Hardee LP v. City of Austin, 522 F.3d 533, 544 n.12 (5th Cir. 2008) (quoting ERWIN
CHEMERINSEY, FEDERAL JURISDICTION § 2.4.18 (5th Ed. 2007)). As explained above, the
facts underlying the justiciability of Plaintiffs’ claims are not in dispute. Further, it is certain or
nearly certain that Plaintiffs will suffer an injury-in-fact at the January 6, 2021 Joint Session of
Congress, if Defendant Pence disregards the exclusive authority and sole discretion granted to him
under the Twelfth Amendment to “count” electoral votes, and instead follows the conflicting and
unconstitutional procedures in Section 15 of the Electoral Count Act, pursuant to which Plaintiffs’
electoral votes will be disregarded in favor of the competing electors for the State of Arizona.
67.

Plaintiffs’ Claims Are Not Moot.

Plaintiffs seek prospective declaratory

judgment that portions of the Electoral Count Act are unconstitutional and injunctive relief
prohibiting Defendant from following the procedures in Section 15 thereof that authorize the
House and Senate jointly to resolve disputes regarding competing slates of electors.

This

prospective relief would apply to Defendants’ future actions at the January 6, 2021 Joint Session

23

44a

Case 6:20-cv-00660 Document 1 Filed 12/27/20 Page 24 of 28 PageID #: 24

of Congress. The requested relief thus is not moot because it is prospective and because it
addresses an unconstitutional “ongoing policy” embodied in the Electoral Count Act that is likely
to be repeated and will evade review if the requested relief is not granted. Del Monte Fresh
Produce v. U.S., 570 F.3d 316, 321-22 (D.C. Cir. 2009).

COUNT I
DEFENDANT WILL NECESSARILY VIOLATE THE TWELFTH AMENDMENT AND
THE ELECTORS CLAUSE OF THE UNITED STATES CONSTITUTION IF HE
FOLLOWS THE ELECTORAL COUNT ACT.
68.

Plaintiffs reallege all preceding paragraphs as if fully set forth herein.

69.

The Electors Clause states that “[e]ach State shall appoint, in such Manner as the

Legislature thereof may direct, a Number of Electors” for President and Vice President. U.S.
Const. art. II, §1, cl. 2 (emphasis added).
70.

The Twelfth Amendment of the U.S. Constitution gives Defendant Vice President,

as President of the Senate and the Presiding Officer of January 6, 2021 Joint Session of Congress,
the exclusive authority and sole discretion to “count” the electoral votes for President, as well as
the authority to determine which of two or more competing slates of electors for a State, or neither,
may be counted, or how objections to any single slate of electors is resolved. In the event no
candidate receives a majority of the electoral votes, then the House of Representatives shall have
sole authority to choose the President where “the votes shall be taken by states, the representation
from each state having one vote.” U.S. CONST. amend. XII.
71.

Section 15 of the Electoral Count Act replaces the procedures set forth in the

Twelfth Amendment with a different and inconsistent set of decision making and dispute
resolution procedures. As detailed above, these provisions of Section 15 of the Electoral Count
Act are unconstitutional insofar as they require Defendant: (1) to count the electoral votes for a
24

45a

Case 6:20-cv-00660 Document 1 Filed 12/27/20 Page 25 of 28 PageID #: 25

State that have been appointed in violation of the Electors Clause; (2) limits or eliminates his
exclusive authority and sole discretion under the Twelfth Amendment to determine which slates
of electors for a State, or neither, may be counted; and (3) replaces the Twelfth Amendment’s
dispute resolution procedure which provides for the House of Representatives to choose the
President under a procedure where “the votes shall be taken by states, the representation from each
state having one vote” – with an entirely different procedure in which the House and Senate each
separately “decide” which slate is to be counted, and in the event of a disagreement, then only “the
votes of the electors whose appointment shall have been certified by the executive of the State …
shall be counted.” 3 U.S.C. § 15.
72.

Section 15 of the Electoral Count Act also violates the Electors Clause by usurping

the exclusive and plenary authority of State Legislatures to determine the manner of appointing
Presidential Electors and gives that authority instead to the State’s Executive.

PRAYER FOR RELIEF
73.

Accordingly, Plaintiffs respectfully request that this Court issue a judgment that:
A. Declares that Section 15 of the Electoral Count Act, 3 U.S.C. §§5 and 15, is
unconstitutional because it violates the Twelfth Amendment on its face, Amend.
XII, Constitution;
B. Declares that Section 15 of the Electoral Count Act, 3 U.S.C. §§5 and 15, is
unconstitutional because it violates the Electors Clause. U.S. CONST. art. II, § 1,
cl. 1;
C. Declares that Vice-President Pence, in his capacity as President of Senate and
Presiding Officer of the January 6, 2021 Joint Session of Congress, is subject
solely to the requirements of the Twelfth Amendment and may exercise the
25

46a

Case 6:20-cv-00660 Document 1 Filed 12/27/20 Page 26 of 28 PageID #: 26

exclusive authority and sole discretion in determining which electoral votes to
count for a given State;
D. Enjoins reliance on any provisions of the Electoral Count Act that would limit
Defendant’s exclusive authority and his sole discretion to determine which of two
or more competing slates of electors’ votes are to be counted for President;
E. Declares that, with respect to competing slates of electors from the State of
Arizona or other Contested States, or with respect to objection to any single slate
of electors, the Twelfth Amendment contains the exclusive dispute resolution
mechanisms, namely, that (i) Vice-President Pence determines which slate of
electors’ votes shall be counted, or if none be counted, for that State and (ii) if no
person has a majority, then the House of Representatives (and only the House of
Representatives) shall choose the President where “the votes [in the House of
Representatives] shall be taken by states, the representation from each state
having one vote,” U.S. CONST. amend. XII;
F. Declares that, also with respect to competing slates of electors, the alternative
dispute resolution procedure or priority rule in 3 U.S.C. § 15, is null and void
insofar as it contradicts and replaces the Twelfth Amendment rules above by with
an entirely different procedure in which the House and Senate each separately
“decide” which slate is to be counted, and in the event of a disagreement, then
only “the votes of the electors whose appointment shall have been certified by
the executive of the State … shall be counted,” 3 U.S.C. § 15;

26

47a

Case 6:20-cv-00660 Document 1 Filed 12/27/20 Page 27 of 28 PageID #: 27

G. Enjoins the Defendant from executing his duties on January 6th during the Joint
Session of Congress in any manner that is insistent with the declaratory relief set
forth herein, and
H. Issue any other declaratory judgments or findings or injunctions necessary to
support or effectuate the foregoing declaratory judgment.
74.

Plaintiffs have concurrently submitted a motion for a speedy summary proceeding

under FRCP Rule 57 to grant the relief requested herein as soon as practicable, and for emergency
injunctive relief under FRCP Rule 65 thereof consistent with the declaratory judgment requested
herein on that same date.

27

48a

Case 6:20-cv-00660 Document 1 Filed 12/27/20 Page 28 of 28 PageID #: 28

Dated: December 27, 2020

Respectfully submitted,

Howard Kleinhendler
Howard Kleinhendler Esquire
NY Bar No. 2657120
369 Lexington Ave., 12th Floor
New York, New York 10017
Tel: (917) 793-1188
Fax: (732) 901-0832
Email: howard@kleinhendler.com

___/s/ William Lewis Sessions____
William Lewis Sessions
Texas Bar No. 18041500
Sessions & Associates, PLLC
14591 North Dallas Parkway, Suite 400
Dallas, TX 75254
Tel: (214) 217-8855
Fax: (214) 723-5346 (fax)
Email: lsessions@sessionslaw.net

Lawrence J. Joseph
DC Bar No. 464777
Law Office of Lawrence J. Joseph
1250 Connecticut Ave, NW, Suite 700-1A
Washington, DC 20036
Tel: (202) 355-9452
Fax: 202) 318-2254
Email: ljoseph@larryjoseph.com

Julia Z. Haller
DC Bar No. 466921
Brandon Johnson
DC Bar No. 491370
Defending the Republic
601 Pennsylvania Ave., NW
Suite 900
South Building
Washington, DC 20004
Tel: (561) 888-3166
Fax: 202-888-2162
Email: hallerjulia@outlook.com
Email: brandoncjohnson6@aol.com
COUNSEL FOR PLAINTIFFS
LOUIE GOHMERT, TYLER BOWYER,
NANCY COTTLE, JAKE HOFFMAN,
ANTHONY KERN, JAMES R. LAMON,
SAM MOORHEAD, ROBERT
MONTGOMERY, LORAINE
PELLEGRINO, GREG SAFSTEN, KELLI
WARD and MICHAEL WARD

28

49a

Case 6:20-cv-00660 Document 1-1 Filed 12/27/20 Page 1 of 4 PageID #: 29

50a

Case 6:20-cv-00660 Document 1-1 Filed 12/27/20 Page 2 of 4 PageID #: 30

51a

Case 6:20-cv-00660 Document 1-1 Filed 12/27/20 Page 3 of 4 PageID #: 31

52a

Case 6:20-cv-00660 Document 1-1 Filed 12/27/20 Page 4 of 4 PageID #: 32

53a

Case 6:20-cv-00660-JDK Document 30-1 Filed 01/01/21 Page 1 of 2 PageID #: 378

54a

Case 6:20-cv-00660-JDK Document 30-1 Filed 01/01/21 Page 2 of 2 PageID #: 379

55a

Case 6:20-cv-00660-JDK Document 30-2 Filed 01/01/21 Page 1 of 1 PageID #: 380

56a

Case 6:20-cv-00660-JDK Document 30-3 Filed 01/01/21 Page 1 of 2 PageID #: 381

57a

Case 6:20-cv-00660-JDK Document 30-3 Filed 01/01/21 Page 2 of 2 PageID #: 382

58a

Case 6:20-cv-00660-JDK Document 30-4 Filed 01/01/21 Page 1 of 3 PageID #: 383

59a

Case 6:20-cv-00660-JDK Document 30-4 Filed 01/01/21 Page 2 of 3 PageID #: 384

60a

Case 6:20-cv-00660-JDK Document 30-4 Filed 01/01/21 Page 3 of 3 PageID #: 385

61a

Case 6:20-cv-00660-JDK Document 30-5 Filed 01/01/21 Page 1 of 4 PageID #: 386

62a

Case 6:20-cv-00660-JDK Document 30-5 Filed 01/01/21 Page 2 of 4 PageID #: 387

63a

Case 6:20-cv-00660-JDK Document 30-5 Filed 01/01/21 Page 3 of 4 PageID #: 388

64a

Case 6:20-cv-00660-JDK Document 30-5 Filed 01/01/21 Page 4 of 4 PageID #: 389

65a

